No. 20·
IN THE

~uprcmc illnurt nf ±4c ~uitco ~tcitcs
SFR INVESTMENTS POOL 1, LLC,

Petitioner,

v.
FEDERAL HOME LOAN MORTGAGE CORPORATION, et al.,

Respondents.

BOURNE VALLEY COURT TRUST,

Petitioner,

v.
WELLS FARGO BANK, NA,

Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that, pursuant to Rule 33.l(h) of the Rules of this Court, the Joint Petition for a Writ
of Certiorari complies with the type-volume limitations of Rule 33. l(g). Exclusive of
the exempted portions identified in Rule 33.1 (d), the brief contains 6368 words. (The
undersigned is relying on the word-count utility in Microsoft Word 2016, the word·
processing system used to prepare the brief, consistent with Rule 33.l(d).)

J queline A. Gilbert, Esq
December 31, 2020

